ER-B-98-08



              AUDIT            THE COST REDUCTION
             REPORT            INCENTIVE PROGRAM
                                     AT THE
                               SAVANNAH RIVER SITE




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL         May 1998
   OFFICE OF AUDIT SERVICES
   Page 18
COST REDUCTION INCENTIVE PROGRAM AT THE
SAVANNAH RIVE SITE


TABLE OF
CONTENTS



               Overview

               Introduction and Objective .........................................................1

               Observations and Conclusions.................................................. 3


               Response to Internal Assessment

               Details of Finding ......................................................................4

               Recommendations and Comments ...........................................7


               Appendices

               Scope and Methodology ............................................................9

               Management's Response to Draft Report ................................10
                                       DEPARTMENT OF ENERGY
                                          Washington, DC 20585

                                                    May 29, 1998


MEMORANDUM FOR THE MANAGER, SAVANNAH RIVER OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager
               Eastern Regional Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "The Cost Reduction Incentive Program at the
               Savannah River Site"

BACKGROUND

The Department of Energy (Department) established a Cost-Reduction Incentive Program (CRIP) at
Westinghouse Savannah River Company (Westinghouse) in October 1992. The objective of the CRIP is
to provide an incentive for Westinghouse and its employees to examine processes and techniques and
make one-time improvements to reduce the cost of the contract and return "saved" funds to the direct
control of the Department. In 1997, the Department performed a comprehensive review of
Westinghouse's performance-based incentives and cost-reduction incentives, and concluded that most of
the savings identified through the CRIP occurred through greater management focus on reducing costs,
working smart, or the results of budget constraints, as opposed to innovative changes in work methods
and processes. The Assessment Team recommended that the Savannah River Operations Office
(Operations Office) reevaluate the effectiveness of the CRIP and consider either modifying the program
to provide for payment only for innovative ideas, or cancel the program and utilize performance-based
incentives to reward cost savings over some pre-established threshold. The objective of this audit was to
determine whether the Operations Office took appropriate action in response to the Department's internal
assessment of the CRIP.

RESULTS OF AUDIT

The Operations Office did not take appropriate action in response to the internal assessment. The
Operations Office stated that Westinghouse did not agree to the modification or cancellation of the CRIP,
and the Department could not unilaterally modify or cancel the program because it was incorporated into
the contract. However, the Operations Office could have substantially reduced its CRIP payments to
Westinghouse without amending the contract by (1) enforcing the contract terms that required
Westinghouse to use best commercial practices and industry standards in contract performance, and (2)
requiring Westinghouse to comply with its internal procedure which required that cost-reduction
proposals be innovative. As a result of providing CRIP awards to Westinghouse for non-innovative
proposals, the Department incurred at least $1.7 million in unnecessary costs in FY 1997.

We recommend that the Manager, Savannah River Operations Office (1) require Westinghouse to comply
with its internal procedure requiring that cost-reduction proposals be innovative and (2) discontinue the
practice of providing incentive awards to Westinghouse for non-innovative proposals.
                                                  -2-


MANAGEMENT REACTION

The Operations Office partially concurred with the finding and recommendations. Management concurred
that the Operations Office had not taken aggressive action towards implementing the recommendations in the
internal assessment report. However, management stated that the Operations Office and Westinghouse are
currently evaluating the CRIP with the objective of minimizing the administrative costs and making it more
consistent with Departmental policy. The Operations Office is attempting to modify the program so that in-
novative ideas are rewarded under the CRIP and non-innovative yet laudable ideas are rewarded under the
award fee portion of the contract. The target date for the modification is October 1, 1998.
Overview

INTRODUCTION AND   The Department established a CRIP at Westinghouse in October 1992.
OBJECTIVE          The objective of the CRIP is to provide an incentive for Westinghouse
                   and its employees to examine processes and techniques and make one-
                   time improvements to reduce the cost of the contract and return "saved"
                   funds to the direct control of the Department. Under the CRIP,
                   Westinghouse submits cost-reduction proposals to the Department for
                   approval, and the Department shares the savings realized from approved
                   proposals with Westinghouse and its employees. The Department
                   awards Westinghouse up to 25 percent of the savings realized, and
                   Westinghouse is required to share at least 10 percent of its award with
                   the employees who develop the proposals.

                   In February 1994, the Department’s Contract Reform Team issued a
                   report entitled Making Contracting Work Better and Cost Less. The
                   Contract Reform Team recommended, and the Secretary of Energy
                   approved, 48 action items to improve contracting practices within the
                   Department. Action Item Number 11 required the development of a
                   Departmentwide incentive program for contractor cost-reduction and
                   cost-avoidance programs. The action item required that contractors be
                   allowed to share in any measurable near-term savings realized, and that
                   contractors be expected to develop a system of cost-savings initiatives
                   for its employees.

                   The Department issued guidelines for its cost-reduction/cost-incentive
                   program in April 1995. The guidelines state that approved cost-
                   reduction proposals must be initiated by the contractor and describe an
                   innovative change to a design process or method which will result in
                   cost savings to the Department without adversely impacting contract
                   performance. The guidelines define innovative as a new process or
                   method which demonstrates a deviation from a business-as-usual
                   approach by striving for cost effectiveness beyond routine business
                   practice.

                   The Office of Inspector General (OIG) issued Report DOE/IG-0411,
                   Report on Audit of the Contractor Incentive Programs at the Rocky
                   Flats Environmental Technology Site, in August 1997. The audit
                   determined that the Rocky Flats Field Office approved cost-reduction
                   proposals with reported savings of $16 million which did not meet basic
                   Departmental criteria— they were not innovative and generally did not
                   return savings to the Department.




Page 1                                          The Cost Reduction Incentive Program
                                                          at the Savannah River Site
         In addition, the OIG issued three reports in 1997 dealing with
                                        1
         performance-based incentives at Departmental sites. In March 1997, we
         issued Report DOE/IG-0401, Inspection of the Performance Based
         Incentive Program at the Richland Operations Office. The report
         showed that the Richland Operations Office paid incentive fees that were
         excessive when compared to the cost of labor and material used to
         perform the work, or for work that was (1) accomplished before the
         program was established, (2) not completed, or (3) easily achieved by the
         contractor. Also, in July 1997, we issued Report DOE/IG-0410, Audit of
         Environmental Restoration at the Los Alamos National Laboratory. The
         audit found that the performance criteria used to evaluate the cost
         effectiveness of remediating contaminated sites were not always
         reasonable, measurable, and complete. Additionally, in October 1997, we
         issued Report DOE/IG 0412, Report on Audit of the Contractor
         Incentive Program at the Nevada Operations Office. The audit
         determined that cost-reduction performance measures were vague and
         non-specific, and the Nevada Operations Office rewarded performance
         that could not be objectively evaluated.

         As a result of the problems identified in OIG reports, the Secretary of
         Energy directed a comprehensive review of all performance-based
         management contracts. A review of Westinghouse's performance-based
         incentives and cost-reduction incentives was conducted as part of the
         Department’s comprehensive review. The Assessment Team issued its
         Final Report on the Combined Headquarters/Field Assessment of
         Incentives Used in Performance Based Management Contracts at the
         Savannah River Site in September 1997. The report concluded that a
         majority of the savings identified for cost-reduction incentives occurred
         through greater management focus on reducing costs, working smart, or
         the result of budget constraints, as opposed to true innovation in work




         1
           Performance-based incentives are incentive fees paid to a contractor where an
         identified element of the contractor's profit is tied to the achievement of specific
         technical performance objectives, delivery schedules, or cost control objectives. The
         Contract Reform Team report recommended the use of multiple fee arrangements
         within a single contract, such as the use of an incentive fee and an award fee provision
         and the development of cost-reduction incentive programs.




Page 2                                       The Cost Reduction Incentive Program
                                                       at the Savannah River Site
                   methods, processes, and material utilization. The Assessment Team
                   recommended that the Operations Office reevaluate the effectiveness of
                   the CRIP and consider either modifying the program to provide for
                   payment only for innovative ideas, or cancel the program and utilize
                   performance-based incentives to reward cost savings over some
                   pre-established threshold.

                   The objective of this audit was to determine whether the Operations
                   Office took appropriate action in response to the Department's internal
                   assessment of the CRIP.


                   The audit disclosed that the Operations Office did not take appropriate
OBSERVATIONS AND
                   action in response to the Department's internal assessment. The
CONCLUSIONS
                   Operations Office stated that Westinghouse did not agree to modify or
                   cancel the CRIP, and the Department could not unilaterally modify or
                   cancel the program because it was incorporated into the contract.
                   However, the Operations Office could have substantially reduced its
                   CRIP awards to Westinghouse, without revising the contract, by
                   (1) enforcing contract terms that required Westinghouse to use best
                   commercial practices and industry standards in contract performance,
                   and (2) requiring Westinghouse to comply with its internal procedure
                   which required that cost-reduction proposals be innovative. As a result
                   of providing CRIP incentives to Westinghouse for non-innovative
                   proposals, the Department incurred $1.7 million in unnecessary costs in
                   FY 1997.

                   The audit identified a material internal control weakness that
                   management should consider when preparing its yearend assurance
                   memorandum on internal controls.




                                                                      /s/
                                                          Office of Inspector General




Page 3                                          The Cost Reduction Incentive Program
                                                          at the Savannah River Site
RESPONSE TO INTERNAL ASSESSMENT


Operations Office Did   The Operations Office did not take appropriate action in response to the
Not Take Appropriate    Department's internal assessment of the Savannah River Site's CRIP.
Action                  The Operations Office stated that it had several discussions with
                        Westinghouse regarding the Assessment Team's recommendations;
                        however, Westinghouse did not agree to the modification or cancellation
                        of the CRIP. Also, the Operations Office stated that it could not
                        unilaterally modify or cancel the CRIP because the program was
                        incorporated into the contract.

                        Management stated that in order for Westinghouse to give up its CRIP
                        awards, the Department would have to create a performance-based
                        incentive category to offset the contractor's loss. However, this would
                        result in performance-based incentives/award fees in excess of the
                        contractual limit, and Departmental Headquarters had not agreed to
                        increase the limit. Therefore, the Operations Office neither modified nor
                        canceled the program.

                        We determined that the Department could have substantially reduced
Department Could        CRIP awards to Westinghouse without modifying the contract or
Have Reduced Awards     canceling the program. The Department could have enforced the
Without Modifying the   contract terms that required Westinghouse to use best commercial
Contract                practices and industry standards in contract performance, without
                        benefit of the CRIP. Also, the Department could have required
                        Westinghouse to comply with Departmental guidelines and
                        Westinghouse's internal procedure requiring that cost-reduction
                        proposals be innovative.

                        The statement of work for the contract requires Westinghouse to use its
                        expertise, best commercial practices, and industry standards in all
                        matters pertaining to contract performance. It also requires
                        Westinghouse to integrate the best-of-class capabilities of industry and
                        academia into the work conducted at the Savannah River Site.
                        Additionally, the contract requires Westinghouse to challenge the status-
                        quo and existing paradigms in formulating and implementing safe, high-
                        quality, timely, and cost-effective programs and operations. If the
                        Operations Office limited its incentive awards to only those proposals
                        that exceeded best commercial practices and industry standards, the
                        Department could have substantially reduced its CRIP awards to
                        Westinghouse.




Page 4                                                                       Details of Finding
                            Additionally, the Department could have required Westinghouse to
                            follow its own internal procedure for submitting cost-reduction
                            proposals to the Department. Westinghouse's procedure states that
                            the program provides monetary incentives for employees to suggest
                            innovative ideas that result in hard-dollar (near-term) savings. The
                            procedure defines innovative as a change in existing practice that is
                            not expected as a standard business practice. With respect to
                            standard business practices, the procedure states that the Department
                            expects Westinghouse to exceed minimum performance standards,
                            strive to attain the highest standards as measured against best
                            available practices, be aware of practices employed by other
                            Departmental contractors and the private sector, and use those best
                            practices or experiences as benchmarks to improve cost effectiveness.
                            Despite its procedure requiring cost-reduction proposals to be
                            innovative, Westinghouse submitted proposals that involved standard
                            business practices already being used by other Departmental sites and
                            private industry.

                            The cost-reduction incentives paid to Westinghouse did not produce
Cost-Reduction Incentives
                            innovative practices and techniques at the Savannah River Site.
Did Not Produce
                            During FY 1997, Westinghouse submitted 220 cost-reduction
Innovative Practices and
                            proposals for the Operations Office’s approval. The Operations
Techniques                  Office approved 35 proposals with $16.3 million in estimated savings,
                                                                                2
                            for which Westinghouse was awarded $2.4 million in CRIP
                            incentives. We reviewed the 7 largest awards to Westinghouse,
                            which accounted for $1.7 million, or about 70 percent of the total
                            CRIP incentives awarded during the year. We found that none of the
                            proposals identified innovative business practices or techniques. The
                            proposals identified business practices and techniques that are
                            commonly used by other management and operating contractors or by
                            private industry. Four examples follow.




                            2
                             Westinghouse received $0.6 million during FY 1997 and will receive $1.8
                            million upon validation of the actual savings achieved in FYs 1998 and 1999.




Page 5                                                                               Details of Finding
            • The Department awarded $937,000 to Westinghouse for
              implementing a commercial design process into the Conduct of
              Engineering and Technical Support Manual. The cost-
              reduction proposal stated that the revised practices and
              processes were consistent with those found in industry and non-
              nuclear utilities. The process identified the minimum set of
              procedures required to execute program support and general
              service modifications commensurate with the best practices used
              by commercial architect/engineering firms for similar
              modifications.

            • The Department awarded $164,000 to Westinghouse for
              reducing railroad transportation cost. Prior to the proposal,
              Westinghouse transported coal and other commodities to the site
              exclusively by rail. Westinghouse proposed that it could save the
              Department $1.1 million by transporting coal and other
              commodities using a combination of rail and trucks.

            • The Department awarded Westinghouse $158,000 for
              implementing productivity improvements in the Engineering and
              Construction Division Controller Department. The
              improvements included (1) reorganizing the department into
              three groups with clearly defined, non-overlapping tasks for each
              employee; (2) consolidating or eliminating monthly and weekly
              reports; and (3) reducing the number of meetings.

            • The Department awarded Westinghouse $90,000 for eliminating
              unnecessary office supplies from its inventory. Westinghouse
              stated that the new process would identify inventory items that
              could be eliminated or replaced with less-expensive items
              performing the same function. Additionally, "nice to have
              items," which also have functional, mission-related purposes,
              would be controlled through management approval.
              Westinghouse estimated that the new process would eliminate
              purchases of $300,000 in non-essential office supplies each year.

         The proposals summarized above involve business practices and
         techniques that are commonly used by other management and operating
         contractors and private industry. For example, Lockheed Martin Energy
         Systems uses a combination of railroad and trucking services to
         economically transport coal to the Y-12 Plant in Oak Ridge, Tennessee.



Page 6                                                      Details of Finding
                      Westinghouse's proposals appear to be typical of the types of actions
                      taken by managers in the Government and private industry to avoid
                      waste and inefficiency. Cash incentives should not be required to
                      motivate Westinghouse to produce these types of actions.

Program Resulted in   As a result of these conditions, the Department incurred at least
Unnecessary Costs     $1.7 million in unnecessary costs in FY 1997. The Department also
                      incurred costs for Westinghouse and the Operations Office to process
                      non-innovative CRIP proposals. However, neither Westinghouse nor
                      the Department tracked the amount of time spent preparing, reviewing,
                      and approving the proposals. Therefore, we could not determine
                      administrative costs for the program.


                      We recommend that the Manager, Savannah River Operations Office:
RECOMMENDATIONS
                         1. Require Westinghouse to comply with its internal procedure
                            requiring that CRIP proposals be innovative, and

                         2. Discontinue the practice of giving incentive awards to
                            Westinghouse for non-innovative proposals.


                      Management partially concurred with the finding and recommendations.
MANAGEMENT REACTION
                      Management concurred that the Operations Office had not taken
                      aggressive action towards implementing the recommendations in the
                      internal assessment report. However, management stated that the
                      Operations Office and Westinghouse are currently evaluating the CRIP
                      with the objective of minimizing the administrative costs and making it
                      more consistent with Departmental policy. Management stated that the
                      CRIP was initiated at the Savannah River Site in 1992 as a simple cost
                      reduction program, and that innovation, as the term is used today, was
                      not a requirement. The Operations Office is attempting to modify the
                      program so that innovative ideas are rewarded under the CRIP and
                      non-innovative yet laudable ideas are rewarded under the award fee
                      portion of the contract. The target date for the modification is October
                      1, 1998. Management's entire response is in Appendix 2 of this report.




Page 7                                                 Recommendations and Comments
AUDITOR COMMENTS   Management's comments were not fully responsive to the audit
                   recommendations. Management's comments suggest that the audit
                   recommendations could not be implemented without first modifying the
                   contract or obtaining Westinghouse's concurrence. However,
                   Westinghouse's contract states that the Department's Contacting
                   Officer may accept or reject, in whole or in part, any CRIP proposal
                   submitted by Westinghouse. The acceptance or rejection criteria is
                   nonspecific, and the contract terms do not require acceptance of any
                   particular CRIP proposal. Thus, the Contracting Officer could reject
                   any Westinghouse proposal considered to be non-innovative without
                   violating the terms of the contract. For this reason, we do not agree
                   that the Department must modify the contract before it can implement
                   the audit recommendations. Nevertheless, if management is successful
                   in achieving a timely contract modification which limits CRIP awards to
                   innovative proposals, we would consider the Department's actions to be
                   consistent with the intent of the audit recommendations.




Page 8                                             Recommendations and Comments
Appendix 1

SCOPE         The audit was performed at the Savannah River Site in Aiken, South
              Carolina, from September 17, 1997, through February 4, 1998. The
              audit included a review of cost-reduction proposals submitted by
              Westinghouse and approved by the Operations Office in FY 1997.

              To accomplish the audit objective, we:
METHODOLOGY
                     • Reviewed Departmental and Operations Office guidelines
                       and internal assessments regarding CRIP management;

                     • Evaluated the terms of the Department's contract with
                       Westinghouse regarding the statement of work and CRIP
                       provisions;

                     • Reviewed Westinghouse internal procedures regarding
                       development and submittal of cost-reduction proposals to the
                       Operations Office;

                     • Evaluated seven cost-reduction proposals, with the highest
                       dollar values approved in FY 1997, to determine whether the
                       proposals involved innovative processes or techniques; and

                     • Determined the total amount of cost-reduction incentives
                       awarded to Westinghouse and the cost incurred by the
                       Operations Office and Westinghouse to administer and
                       manage the CRIP in FY 1997.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the objective of the audit. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              did not rely on computer-generated data during this audit.

              An exit conference was waived by the Savannah River Operations
              Office.




Page 9                                                      Scope and Methodology
Appendix 2


United States Government                                                Department of Energy (DOE)
                                                             Savannah River Operations Office (SR)

memorandum

DATE:      May 11, 1998

REPLY TO
ATTN OF:   CMD (Reynolds/803-725-1680)

SUBJECT:   Draft Report on “The Cost Reduction Incentive Program at the Savannah River Site”
           (Your memo, dated 4/13/98)

To:        Terry L. Brendlinger, Manager, Eastern Regional Audit Office, (IG-36), OR


The attachment to this memorandum addresses the recommendations contained in the subject draft
report.

Some understanding of the background of this Cost Reduction Program (CRP) is necessary in order
to understand SR’s implementation. The CRP was initiated at SR in 1992 and was intended as a
means to reduce the cost of contract operations. The program was designed and implemented as a
simple cost reduction program. The concept was based upon a belief that budgeted funds would be
expended unless there was an incentive to the contractor to reduce costs of operation. An integral
part of the program was to obtain the involvement of the contractor employees who would see, on
a day-to-day basis, the opportunities to save money. Accordingly, a provision in the program was a
requirement for the contractor to share the savings with the employees. Innovation, as the term is
utilized today, was not a contractual criteria under the program.

We agree the contractor did not strictly follow its own internal procedures which required
innovation or initiative and suggestions which went beyond “good management practices.”
However, these procedures were more restrictive than the terms of the contract, are subject to
change by the contractor without DOE approval, and were not the basis for DOE’s payments.
Overall we believe the program has been a tremendous success with over $750M in savings
resulting from the program, with only $21M paid to the contractor. The potential for an additional
$46M in savings has yet to be validated for outyears. The key to the program’s success has been
the involvement of the entire workforce in identifying cost savings opportunities, whether they be
driven by innovation, efficiencies, design changes, introduction of new best-practice based
approaches or application of more traditional practices to the accomplishment of work.




Page 10                                                       Management's Response to Draft Report
Employees and management identify cost saving initiatives, along with the proposed amount of the
savings. These savings are returned to DOE through a formal change control process and the
initiative is implemented. Only then is the proposal considered, by the DOE, for an incentive award.
The contractor has returned 10 percent of the incentive payment to the employee(s) who initiated
and implemented the savings ideas.

In summary, I concur SR did not take aggressive action towards implementing the recommendations
made in the Department’s 1997 internal assessment report on SR’s Program. While there have been
ongoing discussions at the staff level regarding the program with the contractor, we have not
reached resolution on the issue. I concur it is time for the program to be revised and we have
already commenced senior management level discussions with the contractor towards this end. We
are looking towards a program where, for example, innovation is rewarded under the CRP and
non-innovative yet laudable ideas are addressed under the award fee portion of the contract.

The draft report indicates your office believes a material internal control weakness exists due to
payments being made for non-innovative proposals. We cannot agree with this assessment as
innovation has not been a standard in the contract for payment; and accordingly, all payments made
to the contractor have been consistent with the existing terms of the contract. As noted above,
however, this is an area we have identified for improvement.

I appreciate the opportunity to provide input and comments to assist the OIG in its validation and
final report efforts. If you or your staff have any questions, contact Alfred Garrett at 803-725-7790,
for audit matters or concerns regarding comments to the findings and recommendations in the draft
report.



                                                            /s/
                                                        Greg Rudy
FED:TER                                                 Acting Manager

TD-98-0044

Attachment:
Comments on Draft Report on “The CRP at SRS”

cc w/att:
HR-5
FM-1




Page 11                                                         Management's Response to Draft Report
Attachment: Memorandum, Rudy to Brendlinger, Draft Report on “The Cost Reduction Incentive
Program at the Savannah River Site,” dated May 11, 1998.

          COMMENTS ON DRAFT REPORT ON “THE COST REDUCTION
            INCENTIVE PROGRAM AT THE SAVANNAH RIVER SITE

RECOMMENDATION

1. The Manager, Savannah River Operations Office require Westinghouse Savannah River
   Company (WSRC) to comply with its internal procedure requiring that Cost Reduction
   Incentive Program (CRP) proposals be innovative.

SR RESPONSE:
Partially Concur. The DOE contract with WSRC (DE-AC09-96SR18500, Clause H.37, Cost
Reduction Proposal) does not require that proposals be innovative. Furthermore, because the
referenced procedure is an internal WSRC procedure, it could be changed by WSRC to mirror the
contract language.

However, DOE and WSRC are evaluating the program with the objective of minimizing the
administrative costs and making it more consistent with the new DOE guidance contained in
Acquisition Letter 97-09. Although the new program has not been finalized, we believe it may
contain a combination of the Award Fee process and the CRP. The CRP could be limited to truly
innovative actions and initiatives and the Award Fee portion address non-innovative initiatives. This
structure will retain the beneficial aspects of management and employee involvement and initiative
in identifying all types of potential cost reductions and efficiencies. Modification to the CRP clause
will require negotiations between DOE and WSRC. We anticipate a modification to the contract
will be effected by October 1, 1998.

RECOMMENDATION

2. The Manager, Savannah River Operations Office discontinue the practice of giving incentive
   awards to WSRC for non-innovative proposals.

SR RESPONSE:
Partially concur. As stated above, the DOE contract with WSRC (DE-AC09-96SR18500, Clause
H.37, Cost Reduction Proposal) does not require that proposals be innovative, and DOE cannot
unilaterally impose an innovative requirement. Also as stated above, DOE and WSRC are
evaluating the program with the objective of streamlining the process and making it more consistent
with the new DOE guidance contained in Acquisition Letter 97-09.




Page 12                                                         Management's Response to Draft Report
                                                                                IG Report No. ER-B-98-08

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
